WAIVER

Supreme Court of the United States

No. 20-1543
Adam P. McNiece v. Town of Yankeetown, Florida, et al.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box:
G Lam filing this waiver on behalf of all respondents.

¥ Tonly represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

“Town OF YAUKEETOWL

 

Please check the appropriate box:

¥ Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

 
    

of the Bar of this Court, Should a response be requested, the
response will be file: a Bar member, (Filing Instructions: Mail the original signed form
to: Supreyie Cour tn: Clprk’s Office, 1 First Street, NE, Washington, D.C. 20543).

  

 

Date: Way (% go)
(Type or print) Name Jay DA CNEAY LT

Mr. OMs. O Mrs. 0 Miss
Firm WORO¥- DACUEADET
adress \OO\ © FT. WAR Ave. STE. 104
City & Stare CUE ARW ATER. LE LOQIDA tip DI THe
Phone LIA = 43D — OAV emai SAY O CORATIORNENS, LEGAL

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

= floary P. UcKiece
